OIG Audit Report GR-30-98-003
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the Maryland State Police
 
GR-30-98-003
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of the grant awarded by the U.S. Department of Justice, Office of Community Policing
Services (COPS), to the Maryland State Police (the State Police). The State Police
received a grant of $1,726,161 to redeploy 204 full-time equivalents (FTEs) officers under
the COPS Making Officer Redeployment Effective (MORE) program. The purpose of the
redeployed officers is to enhance community policing.

The State Police violated the following grant conditions: 



Only $65,511 of the $198,130 reimbursements was adequately supported.




We could not attest to the reasonableness, accuracy, or validity of the
      estimates of time savings of patrol and investigative personnel because the State Police
      had no analytical data or other documented support.




The State Police did not plan for and utilize an interim system to identify and
      accumulate community policing activities.




The State Police did not provide documentation to support the actual
      redeployment of officers. Therefore, the State Police did not demonstrate that it enhanced
      its community policing efforts using the funds provided under the COPS MORE grant. Thus,
      the total award amount of $1,726,161 is considered unsupported.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in APPENDIX II.
#####